No. 20-1578

In The
Supreme Court of the United States
William “Will” Andrew Graven,
Plaintiff, Appellant, Petitioner,
v.
State of Arizona (but in-fact Defendants: [Former] Asst Attorney General
Michael Bailey; [Former] Chief, Criminal Division Don Conrad; [Former]
Chief Prosecutor Paul Ahler; Asst Attorney General Joe Waters; Criminal
Division Legal Administrator Lisa Rodriguez; and [Former] Chief, Special
Investigations Section Mark Perkovich; all 6 of whom the State prevented me
from Serving [which see laterl and so the State by default [which see later]L
Defendants, Appellees, Respondents.
(please note use of plural, which see more about later)

PETITION FOR REHEARING
But “in-factP a Petition for Summary Reversal of a long settled
issue/obvious error by the Court of Appeals for the Ninth Circuit.
(Citing: CSX Transp., Inc. v. Hensley; Allen v. Siebert; and Gonzales v. Thomas; all SCOTUS.)

Note: I believe a Reversal is appropriate as the issue here is long settled by
precedent, except for the District Court and Ninth Circuit who simply refused to
address the issue: the injuries in my Complaint were caused by the documented
Criminal Act of these 6 State Officials, and so my Complaint is in-fact asainst the
6 Officials. not the State [“documented” by their own records, which see later]).
William “Will” A. Graven, Petitioner, In Pro Se
2700 S. Woodlands Village Blvd.
Suite 300-251
Flagstaff, AZ 86001
928-890-8825

PETITION FOR REHEARING
I. The Ninth Circuit’s Obvious Error
Clearly, in my ineptness as an In Pro Se, and my being intimidated by filing a Petition for
Certiorari with this respected Supreme Court (actually, a Petition for Summary Reversal), I
missed noting/highlighting the simplicity of the Ninth Circuit’s errors:
1.) they incompletely quoted/misquoted/misapplied a precedent case, leaving out another; and
2.) they errored in seeing my Complaint as being against the State (while the State’s name
appears as “Defendants,” that was by default., .the result of the State of Arizona AGO not
allowing its Officials being served at their offices, even for officials acts committed while on
the job, and also hiding these Officials’ home addresses from the public...so there is no way to
serve them, blatantly violating Due Process)
In the Ninth Circuit’s Affirmation (which did not include a Standard of Review of the Facts,
as I requested in my Appeal), they (only) quoted the first of the two sentences that define
Pennhurst State Sch. & Hosp. v. Halderman (while leaving out the second sentence, which is
based on and cites Ex Parte Young, which is the case law/precedent they should have applied
to mv Complaint, as my Complaint is asainst six Arizona State AGO State Officials, not the
State [Petition for Cert. Ex 13, Ex 1, here pg 2 at Ref 1; and Cert. Ex 16, Ex 2 here]):
“The district court properly dismissed Graven’s action against the State of Arizona as
barred by the Eleventh Amendment. See Pennhurst State Sch. & Hosp. v. Halderman, 465
U.S. 89, 100 (1984) (Eleventh Amendment immunity applies to states and their agencies or
departments “regardless of the nature of the relief sought”).” (bold/underline emphasis
added by Petitioner)
This Affirmation is wrong from the set-so, as mv Compliant is not asainst the State of
Arizona, and their citation is regarding actions against a state and its agencies or departments,
but this does not apply to my Complaint as mv action is asainst the six Officials/individuals
(in spite of the AGO playing games with preventing service of its Officials, and the State’s
name appearing by default).
Note: Please see Sec II for the makeup of the Defendants/Appellees/Respondents and
why/how the State’s name appears, by default, as “Defendants/Appellees/Respondents.”
The Ninth Circuit failed to mention/include that Pennhurst measures itself against the
seminole precedent case regarding exceptions to the 11 Amendment: Ex parte Young.
Had the Ninth Circuit finished quoting Pennhurst, fairly (along with their having fairly seen
my Complaint as being against the 6 Officials), by including the very next sentence after what
they did quote, they would have added/included: “The Court in Ex parte Young, supra,
recognized an important exception to this seneral rule: “a suit challenging the federal
constitutionality of a state officiars action is not one against the State.” Pp. 465 U. S. 97103.” (bold/underline emphasis added by Petitioner)
1

This missing quote from the Ninth Circuit’s Affirmation is what they should have applied
to m£ Complaint as nt£ action is against the 6 Officials/individuals who are documented
(by their own records, which see throughout my Petition for Cert.) to have committed
Criminal Acts against me as they “exonerated” the most powerful law firm in Arizona,
following the firm and 3 of its attorneys having been approved for criminal charging by the
just previous Attorney General (their acts injured me and so my Complaint against them
followed) (One of the 6 Officials, Paul Ahler, who was the then AGO’s Chief Prosecutor,
has a son who is an attorney with Snell, and Snell is AG Bmovich’s personal political
sponsor. And Snell was working for the AGO at relevant times [noting the Governor’s
relationship with Snell as described in my Petition for Cert.]).
Had the Ninth Circuit fairly quoted Pennhurst, by including Young, and fairly seen my
Complaint as being against the 6 Officials, but yet ruled against me, I would have simply
and clearly asked this Supreme Court for a Summary Reversal for their misapplying Young
as my Complaint is not against the State or a State agency or department, it is against the 6
Officials (which see throughout my Petition for Cert.).
Actually, had the Ninth Circuit fairly and accurately quoted Pennhurst, and so Young, and
also acknowledging that my Complaint is in fact against the 6 Officials (in spite of the
AGO’s playing games with preventing service of its Officials), they would have had to rule
in my favor and there would have been no need for this Petition.
Also noteworthy for Pennhurst is that it was not for state officials committing documented
Criminal Acts violating the US Constitution and Federal Law...as mine is...Pennhurst was a
“mandamus-like” action against a state official who the plaintiff felt was not following state
law, for which the plaintiff was attempting to use a US Federal Court to force that state
official into following state law...but that state official had not committed any crimes nor
violated the US Constitution and Federal law as the Respondents have done in my
Complaint, [e.g., see Footnote 1 and referenced exhibits in Question Presented on pg 2]).
So, obviously, Pennhurst is almost nothing like my Complaint, made simply clear by the
“Held” section of Pennhurst: “Held: The Eleventh Amendment prohibited the District Court
from ordering state officials to conform their conduct to state law. Pp. 465 U. S. 97-124.”
(bold/underline emphasis added by Petitioner)
The Ninth Circuit was unfair and in error by only quoting the limited portion of (a):
“regardless of whether the suit seeks damages or injunctive relief.” thereby creating a
distraction to my case, as my case is against the 6 Officials/individuals (not the State) who
committed documented Criminal Acts against me, thereby injuring me. Again, as Pennhurst
states: “The Court in Ex parte Young, supra, recognized an important exception to this
general rule: “a suit challenging the federal constitutionality of a state official’s action is
not one against the State.” Pp. 465 U. S. 97-103. (bold/underline emphasis by Petitioner)
The Ninth Circuit not citing and not applying Ex parte Young, particularly as mj; case is
against the 6 Officials/individuals who committed “Criminal and Supporting Acts,” and not
2

against the State of Arizona as “the real, substantial party in interest,” is an obvious error.
The Ninth Circuit should have simply cited Ex Parte Youns in my Appeal.
Or, is the Ninth Circuit suggesting that the 11th Amendment can be used to protect state
officials when they commit criminal acts?
Young is a 1908 case, Pennhurst is a 1984 case before and since which this Supreme Court
and the Ninth Circuit itself have established even more exceptions to the 11 Amendment.
II. The Makeup of the Defendants/Appellees/Respondents
Finally, please do not forget: as the AGO does not allow its Officials being served at their
offices, not even for acts committed while on the job, and as these Officials have their home
addresses hidden from the public, I (rather, my licensed process server) could not serve let
alone find these 6 Officials/individuals outside of their offices, and so I had to amend their
names out of my Complaint (which see my Petition for Cert., a partial explanation of this can
be see in Cert. Ex 16, Ex 2 here), leaving the State named by default (but I continued to use
the plural form of defendants et al), as I had no other defendants to name (which see
throughout my Petition for Cert. [I tried Arizona State Court, but was assigned a Judge who
came from the law firm representing the State and the 6 Officials, and that Court would not
Order these 6 Officials Served at their offices while on the job [as the Judge in this Complaint
also refused to do], and so again, I had to Amend the 6 Officials out of my Complaint]).
Isn’t the Arizona AGO clever, as they prevent its Citizens from access to offending AGO
Officials...thereby forcing its Citizens to sue the State...so the State can then hide behind the
11th Amendment., .isn’t this a violation of Due Process, if not a fraud scheme?
Will this respected Supreme Court accept such a scheme to thwart Justice, thereby
creatine a shield for criminal acts by Arizona State Officials (and soon other states) ?
Regardless of the AGO’s schemes to prevent Citizens from access to offending officials, my
Complaint is in fact aeainst these 6 Officials/individuals. So, in fact, the State was named
by default, as I had to use the State’s name as “defendants” as the State had prevented me
serving the in-fact defendants (which see throughout my Petition for Certiorari), and the
State was also named for its potential Respondeat superior liabilities.
III. CONCLUSION
Concluding this Petition for Rehearing, I ask this Supreme Court for a Summary Reversal of
the Ninth Circuit’s obvious error in its misapplication of Pennhurst State Sch. & Hosp. v.
Halderman\ and Young; while not citing other exceptions to the 11th Amendment...as my
Complaint was and is against 6 Officials/individuals who committed documented Criminal
Acts against me (thereby injuring me, and so my Complaint against them followed).
This Supreme Court’s own summary reversal precedents makes clear that Summary
Reversal is for circumstances like this one that do not decide any new or unanswered
question of law, but simply corrects a lower court’s demonstrably erroneous application of
federal law or binding precedent. See CSX Transp., Inc. v. Hensley, 556 U.S. 838, 840
3

(2009) (summarily reversing where court of appeals committed “clear error” when applying
a prior decision of the Supreme Court); Allen v. Siebert, 552 U.S. 3, 7 (2007) (summarily
reversing where prior decision of Supreme Court “preclude[d]” the “Court of Appeals’
approach”); Gonzales v. Thomas, 547 U.S. 183, 185 (2006) (summarily reversing because
error was “obvious” in light of binding precedent).
Dated: June 18, 2021
Respectfully submitted, /f'

William “Will” A. Graven, Petitioner, In Pro Se
2700 S. Woodlands Village Blvd.; Suite 300-251
Flagstaff, AZ 86001
928-890-8825

4

No. 20-1578

In The
Supreme Court of the United States
William “Will” Andrew Graven,
Plaintiff, Appellant, Petitioner,
v.
State of Arizona (but in-fact Defendants: [Former] Asst Attorney General
Michael Bailey; [Former] Chief, Criminal Division Don Conrad; [Former]
Chief Prosecutor Paul Ahler; Asst Attorney General Joe Waters; Criminal
Division Legal Administrator Lisa Rodriguez; and [Former] Chief, Special
Investigations Section Mark Perkovich; all 6 of whom the State prevented me
from Servins [which see laterl and so the State by default [which see later!).
Defendants, Appellees, Respondents.
(please note use of plural, which see more about later)

On Petition for a Writ of Certiorari to the
United States Court of Appeals For the Ninth Circuit

A PETITION FOR REHEARING
RULE 44.2 GOOD FAITH CERTIFICATION REGARDING
PETITION FOR REHEARING OF DENIAL OF
PETITION FOR WRIT OF CERTIORARI
William “Will” A. Graven, In Pro Se, pursuant to Supreme Court Rule 44.2 hereby
certifies that the forgoing attached Petition for Rehearing and Request for Suspension of
Denial of Petition for Writ of Certiorari is limited to other substantial grounds not previously
considered, and is made in good faith and not for delay.
1

Specifically, the grounds not previously considered includes that I did not demonstrate
how the Ninth Circuit incompletely quoted/misused/misapplied a precedent case, Pennhurst
State Sch. & Hosp. v. Halderman (which does not directly apply to my Complaint), while
leaving out another precedent case, Ex Parte Young (which directly does apply to my
Complaint); nor did I fully cover the Respondents’ violations of Due Process, which prevented
my serving all Defendants, leaving my Complaint, by default, to appear as if it is against the
State rather than the 6 Arizona State AGO State Officials that committed documented
Criminal Acts against me, thereby injuring me, and so this respected Supreme Court was
poorly informed, and thereby denied my Petition.
I also failed to note/highlight the Ninth Circuit errored in seeing my Complaint as
being against the State, as now explained in this Petition.
Without this Supreme Court acting to reverse the Ninth Circuit, it will have become
established that States can block their Citizens from being able to serve to offending Officials,
so the Officials and their state can then hide behind the 11th Amendment...and states will then
no longer have reason to monitor their Officials’ behaviors...and errant state Officials will
become ever more aggressive in their criminality.
I would very much appreciate your granting my Petition for Rehearing.
Thanking this respected Supreme Court in advance.

William “Will” A. Graven, Petitioner, In Pro Se
2700 S. Woodlands Village Blvd.; Suite 300-251
Flagstaff, AZ 86001
928-890-8825
2

Additional material
from this filing is
available in the
Clerk's Office.

/i

